ORIGINAL
FILED
FEB 2 2 2021

20=1278

LSP S'^Jec.lerk

No.

In the Supreme Court
of the United States
In Re:
Johlen and Melissa Johnson,
v.

Jp Morgan Chase Bank, N.A.
On Petition for a
Writ of Certiorari to
The Supreme Court of Arizona

Petition for a Writ of Certiorari
Johlen and Melissa Johnson
mjandassociates9@gmail.com
1668 Alta Vista Road
Bullhead City, Arizona
96442

RECEIVED |
MAR - 8 2021
OFFICE OF THE CLERK
SUPREMECOURtIuls*

(i)
QUESTION PRESENTED
Currently Arizona uses a scheme of statutes to
effectuate forced conveyances of residential single­
family property via a non-judicial foreclosure. It is
known as the Deed of Trust Scheme. Generally, the
property is taken from its owner, as here, by way of
using the county recorder's office where the property
is located. The process includes a total of three
documents typically all recorded by the lenders
substituted trustee in a 90-day period after which
time the trustee sells the property at a trustee sale
granting the property to the highest bidder at that
sale. One particular concern here is that same trustee
later initiated the forcible detainer action against the
homeowners. Arizona Revised Statutes (A.R.S.) § 121177 (A) states a trustee’s, deed is presumed to
comply with Arizona law and under A.R.S. 83-ll(c)
the homeowner
waives all defenses to that sale once
•*
it has occurred. Consequently, any subsequent
homeowner claims are mute. See A.R.S. § 12-1177(A)
and A.R.S. § 33-811 (C') where borrower "waives all

|- Q3¥BD3!1
*

m b-m

1

I

defenses and objections to the sale not raised in an
action that results in the issuance of a Court order
granting relief...” Under these combined statutes
Petitioner "waived” his claims asserted under A.R.S. §
39-161 which prohibiting any person or entity from
recording false instruments that give rise to
fraudulent, baseless claims of interest in real
property. However, Petitioners clearly did not
"waive" these claims and therefore have been
deprived of their property without due process of law
under the fifth amendment.
In some instances a constitutional injury arises as a
result of two or more statutory provisions operating
together. See, Seila Law LLC v. Consumer Financial
Protection Bureau, March, 2020 citing, Free Enterprise
Fund, supra, at 509 (stating that the convergence of "a
number

of

statutory

provisions"

produce

a

constitutional violation). The provision requiring
"good-cause removal is only one of [the] statutory
provisions

that, working together,

constitutional violation."

produce

a

Arizona provides no path for a homeowner to assert
challenges to the trustee sale after it has occurred and
the Deed of Trust Scheme is an arrangement of
statutes leading to non-judicial forced conveyances
without

due

process

and

is

therefore

unconstitutional. Thus, the question presented here,
Does the prevailing Opinions of the Arizona
Deed of Trust Scheme produce a constitutional
violation, and therefore provide this Court with
good cause for removal of one or more of its
provisions under severability?
The answer is of national importance in these
unprecedented times of our country’s financial
uncertainty. Many homeowner's across the county
currently await these scheduled trustee sales and also
rely on the protections afforded from the Consumer
Financial Protection Bureau
Judiciary for oversight.

("CFPB") and the

'

(ii)
PARTIES TO THE PROCEEDING
Petitioners Johlen and Melissa Johnson were
Defendants in Mohave County Superior Court
and Petitioner in the Court of Appeals, Division
One for the State of Arizona.

Respondents, JP Morgan Chase Bank, is a
National Association and Plaintiffs in Mohave
Superior Court and Respondents to this Petition.

RELATED PROCEEDINGS
There are no proceedings in other courts directly
related to the case in this Court Rule 14.1(b).

(iii)

TABLE OF AUTHORITIES
OPINIONS
Page
Free Enterprise Fund, supra, at 561 U. S., at 509
2
Booker, 543 U. S., at 316-317 [18 U. S. C.J 3,14
§3553(b)(l)
2
In re Krohn, 203 Ariz. 205, 208. P.3d 774, 777 4
(2002)
3,7
Curtis, 186 Ariz. 534, 535(1996)
5,13
BT Capital, 229 Ariz. at 301 f 11, 275 P.3d at 16
600
6,12
Hogan, 230 Ariz. at 585, K 5, 277 P.3d at 782.
7
Snyder v. HSBC Bank, USA, N.A., 873 F. Supp.
2d 1139, 1148 (D. Ariz. 2012)
7
Eardley v. Greenberg, 164 Ariz. 261, 264, 792
P.2d 724, 727(1990),
8
Brant v. Hargrove, 129 Ariz. 475, 480-81, 632
P.2d 978, 983-84 (App. 1981).
8
Patton v. First Fed. Sav. & Loan Ass’n. of Phx.,
118 Ariz. 473, 477 P.2d 152, 156(1978)
9
Barrionuevo v. Chase Bank, N.A., at pp. 973-974
9
Little v. CFS Service Corp. (1987) 188
Cal.App.3d 12 1354, 1362, 233
9

Colby v. Title Ins. And Trust Co. (1911) 160 Cal.
13 632, 644, 117 P. 913
9
Murphy, 584 U. S., (slip op., at 4-6)
10
Obduskey v. McCarthy and Holthus LLP, 171307
10,11
STATUTES
UNITED STATES CODE
28 U. S. C. § 1257(a)
28 U.S.C. § 1254(1)

2
2

ARIZONA REVISED STATUTES
The Arizona Deed of Trust Scheme
A.R.S. §§ 33-801-821

3,7,8

A.R.S. § 12-1177.01
4
A.R.S. § 12- 1177(A)
5,12,13
A.R.S. § 33-811(B)
6,12
A.R.S. §33-811(C)
6,12
A.R.S. § 33- 807(A)
8
Rest.2d Contracts,§ 7, com. A
9

(iv)
TABLE OF CONTENTS
Opinions below................................
Jurisdiction.....................................
Constitutional and Statutory
Provisions involved.........................
Statement of the Case..................
Reasons for granting the petition
Conclusion........................................

APPENDIX TABLE
Appendix A
Court of Appeals, Division One
Memorandum Decision.
Appendix B
Arizona Supreme Courts
November 13, 2020
Denial of Discretionary Review
Appendix C
Petitioners Opening Brief

1
2
2
3
7
14

OPINIONS BELOW
Petitioners ask a Writ of Certiorari be issued and
Review of the resulting judgments below:

The

unpublished

April

23,

2020

Memorandum Decision of the Arizona
Court of Appeals, Division One, designated
as Appendix A.
The November 13, 2020 Arizona Supreme
Courts

denial

of discretionary

review

designated as Appendix B.

1

JURISDICTION
The jurisdiction of the Supreme Court is invoked
under 28 U. S. C. § 1257(a) and Jurisdiction is
proper under 28 U.S.C. § 1254(1) and Rule 13.3.
Equally Arizona’s Deed of Trust statutory scheme
is unjust in light of the Fifth Amendment as well
as the Fair Debt Collection Practices, which is an
issue of federal importance that should be settled
by this Court. The date on which the highest state
court decided the case was November 13, 2020. A
copy of that decision appears at Appendix B.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This injury was caused as the result of at least
two statutory provisions which all operating
together lead to unconstitutional fact finding.
See, e.g., Free Enterprise Fund, supra, at 509
(stating that the convergence of “a number of
statutory ‘^provisions” produce a constitutional
violation); Booker, 543 U. S., at 316-317 (opinion
of THOMAS, J.) (explaining that “the concerted

2

action of [18 U. S. C.] §3553(b)(l) and the
operative Guide-lines and the relevant Rule of
Criminal Procedure resulted in unconstitutional
judicial factfinding”). The Deed of Trust scheme
enacted in 1971 is articulated in Title 33 of
Arizona Revised Statutes (A.R.S.) §§ 33-801-821
and is commonly used as “an alternative to the
cumbersome judicial foreclosure system.” See In
reKrohn, 203 Ariz. 205, 208. P.3d 774, 777 (2002).
This combination of statutory provisions in
Arizona’s nonjudicial foreclosure scheme, when
implemented with those statutes interpretations
deprive

homeowners from the outset from

defending their property rights in the Forcible
Detainer Action (“FED”) and are denied due
process under the fifth amendment.
STATEMENT OF THE CASE
The Johnsons residence is the subject property in
dispute commonly known as 1668 Alta Vista Road
in Bullhead, Arizona. Respondents JP Morgan
Chase Bank, NA (“Chase”) is their lender

3

according to the Deed of Trust. Chase substituted
a trustee to auction the property at a trustee sale
which occurred on January 22, 2019. The highest
bidder also being Chase bank. The trustees deed
recorded on January 25, 2019 confirms these
events. Shortly following the sale, the same
substituted trustee initiated a complaint for
forcible detainer in the superior court pursuant to
ARS 12-117.01 in Mohave County where the
Johnsons were later found guilty and thereafter
appealed the superior court’s ruling to the Court
of Appeals,

Division One. After appellants

entering their Opening brief, Chase entered a
‘Notice of Substitute Counsel with Consent’
withdrawing

the

substituted

trustee

as

representatives for Chase. Notably the ‘Notice’
did not include an address as required or the
Plaintiffs signatory’s name because

it was

illegible and unnotarized. The issued raised by
the Johnsons on appeal was that Plaintiffs Chase
could not use their substituted trustee to state a

4

claim or bring an action for forcible detainer on
their behalf under the deed of trust scheme since
they are both beneficiary and substituted trustee
and because of that the recorded trustees deed is
voidable by the Johnsons. (See Opening. Brief
Appendix C) Division One did not agree however
and upheld the trial court, in their memorandum
concluded...
“Her sole argument attacks the validity of
the trustee’s sale: “[Chase] and the trustee
are one in the same and additionally they
are both beneficiary, and substituted
trustee,Jtherefore the Trustees Deed is void
and the sale must be set aside because this
trustee lacked authority to conduct the sale.
f 6 But this argument addresses the merits
of title and thus is beyond the scope of a
forcible detainer action. See A.R.S. § 121177(A) (“On the trial of an action of .. .
forcible detainer, the only issue shall be the
right of actual possession and the merits of
title shall not be inquired into.”); see also
Curtis v. Morris, 186 Ariz. 534, 534 (1996).
Moreover, any challenge to the trustee’s sale

5

must be pursued before the sale has been
completed; the trustor may not challenge the
completed sale based on pre-sale objections.
See A.R.S.. § 33-811(C); BT Capital, LLC v.
TD Serv. Co. of Ariz., 229 Ariz. 299, 301, f
11 (2012). The trustee’s deed raised a
presumption that the sale comported with
statutory requirements, see A.R.S. § 33811(B), and Johnson has offered no basis to
overcome either this presumption or waiver
under § 33-811(C). Accordingly, we affirm
the forcible detainer judgment.”
As indicated here, because a recorded trustee’s
deed raises the presumption that the trustee sale
comported with statutory requirements and
thereby proof of a valid trustee sale, it cannot and
should not also be used by the recorder of that
trustee’s deed to later initiate a forcible detainer
action by the same named lender. Arizona’s deed
v

* ^ r*7; t "

■>

of trust scheme holds as its cornerstone a
recorded trustee’s deed affirming the trustee sale
comported
j

with

all

of

Arizona

statutory

requirements under A.R.S. § 33-811(B).

6

REASONS FOR GRANTING
THIS PETITION
Arizona Trustees Deeds are used as prima facia
evidence in forcible detainer actions. The deed of
trust scheme enacted in 1971 is articulated in
Title 33 of our Arizona Revised Statutes. They are
A.R.S. §§ 33-801 -821 and used as an alternative
to the often-cumbersome mortgage and judicial
foreclosure system.

In re Krohn, 203 Ariz. 205,

208. P.3d 774, 777 (2002). One of the primary
purposes served by a deed of trust is that it
permits a non-judicial foreclosure sale. Hogan,
230 Ariz. at 585, 1 5, 277 P.3d at 782. A.R.S. §
33-807 empowers the trustee to sell the real
property securing the underlying note through a
non-judicial sale because it creates rights and
responsibilities in three individuals or entities:
“trustee,” “trustor,” and “beneficiary.” A.R.S. §§
33-801(1), -801(10), 801(11); Snyder v. HSBC
Bank, USA, N.A., 873 F. Supp. 2d 1139, 1148 (D.
Ariz. 2012). The borrower, or trustor, transfers
legal title in the property to a trustee, while at the

7

same time retaining possession of the property
and enjoying the benefits of ownership. A.R.S. §§
33-801(8), -801(10); Eardley v. Greenberg, 164
Ariz. 261, 264, 792 P.2d 724, 727 (1990); Brant v.
Hargrove, 129 Ariz. 475, 480-81, 632 P.2d 978,
983-84 (App. 1981). The trustee only holds bare
legal title for the beneficiary, here Chase,
however the trustee’s title is supposed to be
limited essentially holding legal title for the sole
purpose

of

selling

the

property

if

the

trustor/borrower defaults on the note. A.R.S. § 33807(A); Eardley, 164 Ariz. at 264, 792 P.2d at 727.
The trustor Johnsons rights were ignored due to
the chosen activities stated herein concerning
both the beneficiary and the trustee whichlead to
a skewed forcible detainer action. Borrowers are
already stripped of many protections available in
judicial foreclosure which is the reason lenders
are required to strictly comply with the Deed of
Trust statutes and “the statutes and Deeds of
Trust must be strictly construed in favor of the

8

borrower”. Patton v. First Fed. Sav. & Loan Ass’n.
ofPhx., 118 Ariz. 473, 477P.2d 152, 156(1978).
This Petition should be granted because Arizona is in
direct conflict with prevailing cases decided in
California which rightfully acknowledge wrongful
foreclosure actions. "If a purported assignment
necessary to the chain by which the foreclosing entity
claims that power is absolutely void, meaning of no
legal force or effect whatsoever, the foreclosing entity
has acted without legal authority by pursuing a
trustee's sale, and such an unauthorized sale
constitutes a wrongful foreclosure. Barrionuevo v.
Chase Bank, N.A., at pp. 973-974. "A void contract is
without legal effect. (Rest.2d Contracts,§ 7, com. A) "It
binds no one and is a mere nullity." (Little v. CFS
Service Corp. (1987) 188 Cal.App.3d 1354, 1362, 233
Cal.Rptr. 923.) "Such a contract has no existence
whatever. It has no legal entity for any purpose arid
neither action nor inaction of a party to it can validate
it...." (Colby v. Title Ins. And Trust Co. (1911) 160 Cal.
632, 644, 117 P. 913.) California properly recognizes

9

wrongful foreclosure as a valid defense thereby
ensuring due process for its property owners.
This Petition should also be granted because this
Court's precedents are questionable as to good cause
for severability and should be resolved "...the
severability inquiry moves away from statutory
interpretation and falls back on this Court’s
questionable precedents. See Murphy, 584 U. S., at
(THOMAS, J., concurring] (slip op., at 4-6). An analysis
of the Court’s decisions in Booker and Free Enterprise
Fund illustrates the Court's approach to determining
which provision to sever when confronting an injury
caused by an unconstitutional convergence of
multiple statutory provisions.”
The convergence of Arizona's deed of trust statutory
provisions, a framework which streamlines the
foreclosure process' and yet is still supposed to
’

*

*

.

maintain protections for borrowers and the public.
Recently in Obduskey v. McCarthy and Holthus
LLP, 17-1307 the Court held that a business
engaged in nonjudicial foreclosure proceedings

10

was not a debt collector under the Fair Debt
Collection Practices Act as long as they are
engaged only in that act. In Arizona these
Plaintiffs are engaged in more than just the sale
including the recovery of excess proceeds after the
sale,

representing the lender,

or represent

purchaser as plaintiff in a forcible detainer
actions and these important issues were not fully
resolved.
“I would see as a different case one in
which the defendant went around
frightening homeowners with the threat of
foreclosure
without
showing
any
meaningful intention of ever actually
following through. There would be a
question, in such a case, whether such an
entity was in fact a “business the principal
purpose of which is the enforcement of
security interests,” see §1692a(6), or
whether it was simply using that label as a
stalking horse for something* else.” See
Obduskey v. McCarthy and Holthus LLP,
Justice Sotomayor, concurring.

11

This

Court

should

determine

whether

the

enforcement of the waiver of challenges regularly
recited in all post sale rulings and routinely abandons
all claims of trustee sale irregularities seriously
disrupts

protecting

homeowners

in

light

of

constitutional due process. And if Arizona’s overall
statutory scheme in totality gives good cause to
severe parts of its provisions including A.R.S. §33811(B) and A.R.S. § 33-811(C) which have been
interpreted to validate any recorded trustees deed
and consequently allowing the purported highest
bidder unopposed rights to actual possession of
Arizona properties. A recorded trustees deed is
prima summary judgment in favor of the grantee
as a result of these strictly interpreted statutes.
A person subject to A.R.S. § 33-811(C) “cannot
later challenge the sale based on pre-sale defenses
or objections.” See BT Capital, 229 Ariz. at 301 t
11, 275 P.3d at 600. Also A.R.S. § 12-1177(A)
explains the purpose of the FED is limited and
intended to afford a summary, speedy and
adequate remedy for obtaining possession.

12

In a FED action, "the only issue shall be the right
of actual possession and the merits of title shall
not be inquired into." Thus, the merits of the
Plaintiffs title are beyond the scope of an FED
action. See A.R.S. § 12-1177(A) (“[In an FED
action], the only issue shall be the right of actual
possession and the merits of title shall not be
inquired into.”); see also Curtis v. Morris, 186
Ariz. 534, 534 (1996). Since the only issue is the
right of possession, the Plaintiff has the right of
possession under the trustee’s deed which will
stand forever unopposed as allowed by this
presumption. Here is Petitioners were barred
from asserting claims against the trustee by
virtue of the recorded trustee’s deed, which the
same trustee had recorded, and later initiated a
forcible detainer action against the homeowners.

13

*

CONCLUSION
The recorded trustee’s deed used in the action
here by its recorder, raised the presumption that
the trustee sale, conducted by its recorder,
comported with statutory requirements that were
material in rendering the decision This Petition
for a Writ of Certiaori should be granted to allow
challenges to the recorded trustees deed, the
trustee sale, and wrongful foreclosure claims with
oversight from the CFPB
The

Johnsons

request

review

of

the

Memorandum Decision as well as the actions
leading thereto.

Respectfully submitted February 15, 2021

Johlen & Melissa Johnson
mjandassociates9@gmail.com
1668 Alta Vista Road
Bullhead, AZ 96442

14

